Department of Law
Kristin M. Bronson, Denver City Attorney
Litigation Section
201 W Colfax Ave, Dept 1108
Denver, CO 80202-5332
p: 720.913.3100
f: 720.913.3155
www.denvergov.org/city_attorney

August 6, 2021
VIA ECF AND FEDERAL EXPRESS
Scott S. Harris, Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Levi Frasier v. Christopher Evans, et al., No. 21- 57
Motion to Extend Time to File Response to Petition for Writ of
Certiorari

Dear Mr. Harris:
I am counsel of record for Respondents in the above-referenced matter.
Pursuant to Supreme Court Rule 30.4, Respondents respectfully request an extension
of time to file their response to the Petition for a Writ of Certiorari docketed on July
15, 2021. Respondents have not previously sought an extension, and their response
is currently due on August 16, 2021. Respondents seek an extension of time of 45
days, up to and including September 30, 2021.
Good cause exists for this requested extension. In the past few weeks, our office
has been notified of several requests to file amicus curiae briefs in support of
Petitioners and has been consulting with practitioners who regularly appear before
the United States Supreme Court to select co-counsel for assistance in preparing the
response. Additionally, the undersigned is the Director of Civil Litigation for the
Denver City Attorney’s Office and in that role is responsible for supervising a heavy
docket of ongoing matters, including supporting a new public health order issued by
Denver’s local public health authority related to the COVID-19 variant which imposes
a vaccination requirement for all City employees and private-sector workers in highrisk settings, and assuming the lead counsel role in an upcoming 10-day civil rights
trial scheduled to occur in September 2021 before the U.S. District Court for the
District of Colorado. For these reasons, an extension of 45 days will allow counsel for
Respondent to prepare a comprehensive response that fully addresses the issues
raised by Petitioner and their amici and will aid the Court’s efficient resolution of
this matter.

Accordingly, Respondents respectfully request that they be granted an
additional 45-days, up to and including September 30, 2021, in which to file their
brief in opposition to the Petition for Writ of Certiorari.
Respectfully submitted,
s/ Wendy Shea
Wendy J. Shea, Director of Civil Litigation
Denver City Attorney’s Office
Counsel of Record for Christopher L. Evans,
Charles C. Jones, John H. Bauer, Russell
Bothwell, and John Robledo
cc:

Jeffrey L. Fisher (counsel of record for Appellant)

2

